MEMORANDUM

Date: December 27, 1999




Background

        On September 2 1, 1999, OIG received information regarding the attempted use of
the government mail for personal business. Mailroom personnel opened a box that had
been returned as un
had been address to
box contained baby

        A check of agency records for no matches for
                                                       m
mailroom and OIG anreed that the mailroom should post an announceme on      The
                                                                             the NSF

dim      e bulletin bo&d requesting that anyone famiiar with a box mailed to
         should contact the mailroom. OGC was consulted and they determi
was not an appropriate announcement. The General Counsel requested that other
investigation be attempted first.

        Internet searche
one at the hotel knew of
being registered at the h
announcement would not be appropriate.

Conclusions

       There are no further investigative leads. This case is closed.
